OIG Investigative Reports, Dental Student Pleads Guilty to Financial Aid Fraud in Federal Court
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
The United States U.S. Attorney's Office
Eastern District of Louisiana
500 Poydras St
Suite 210-B
New Orleans,
Louisiana 70130
Tel: 504.680.3000
Fax: 504.589.4510
DENTAL STUDENT PLEADS GUILTY TO FINANCIAL AID FRAUD IN FEDERAL COURT
July 8, 2009
ANTHONY JUAN WALKER, age 27, a resident of Tarrytown, New York, pled guilty in federal court today before U.S. District Judge Carl J. Barbier to federal financial aid fraud, announced U. S. Attorney Jim Letten.
According to court documents, WALKER submitted a fraudulent college transcript from Cornell University which falsely inflated defendant’s grade point average and falsely indicated that defendant had taken the prerequisite science courses for Dental School Admission, as well as fraudulent Dental Admission Test results to the Louisiana State University Health Science Center New Orleans School of Dentistry. As a result, WALKER obtained admission to LSU School of Dentistry and received $40,072 in loans under the Federal Family Education Loan Program.
WALKER faces a maximum term of imprisonment of five (5) years, a $20,000 fine and up to three (3) years supervised release following any term of imprisonment. WALKER sentencing has been scheduled for October 14, 2009 at 1:30 P.M.
This investigation was conducted by U. S. Department of Education and Federal Bureau of Investigation. The case is being prosecuted by Assistant U. S. Attorney Julia K. Evans.
Download Factual Basis
Top
Printable view
Last Modified: 01/29/2010
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov